                         UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection


    The International

  Broadcasting Bureau’s

    Delano, California,

   Transmitting Station

Report Number IBO-I-05-05, March 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



                          UNCLASSIFIED

                            TABLE OF CONTENTS
KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3

     History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     3

     Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     5

PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Management Challenges. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Resource Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Station Morale . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

PROGRAM PERFORMACE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Oversight for the Delano Transmitting Station . . . . . . . . . . . . . . . . . . . . . . 9

     Transmitter and Antenna Maintenance and Availability . . . . . . . . . . . . . . . 9

     Satellite Interconnect System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     Assisting Greenville Station . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     Jamming and the Office of Cuba Broadcasting . . . . . . . . . . . . . . . . . . . . . 11

     Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

     Commercial Power . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

HUMAN RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

     Workforce Concerns. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

     Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

     Safety and Emergency Evacuation Procedures . . . . . . . . . . . . . . . . . . . . . 17

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       19

    Purchase Card Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   19

    Contracts and Procurements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        19

    Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   19

    Motor Pool Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     21

R ECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

PRINCIPAL OFFICERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

APPENDIX C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                                        UNCLASSIFIED





                              KEY JUDGMENTS

•	 The Delano Transmitting Station has two missions. The first is to provide
   shortwave transmissions to Cuba, the Caribbean, Latin America, and the
   Pacific Ocean. The second is to serve as a gateway for the Satellite Intercon-
   nect System (SIS).
•	 The Delano Transmitting Station serves a crucial role as an SIS gateway to
   the Far East, the Caribbean, Central and Latin America, Cuba, Thailand,
   Micronesia, the Pacific Ocean, Oceania, and the Indian Ocean region.
•	 Radio Marti programming accounts for approximately 50 percent of the
   Delano Transmitting Station’s shortwave transmissions.
•	 Morale at the Delano Transmitting Station is generally high. Most employees
   told the Office of Inspector General (OIG) that the current management
   team is one of the best they have ever seen.
•	 The Delano Transmitting Station has a diverse staff, including its first female,
   electronics technician. The station is undergoing a transition to newer, less-
   experienced staff. In 2003, Delano lost seven individuals to retirement or
   attrition, losing 127 years of combined experience. Over the next three years
   three additional staff, with over 105 years of combined experience, will be
   eligible to retire. Given this transition in its human capital, the station needs
   to take more deliberate steps to ensure succession and readiness.
•	 The Delano Transmitting Station is using appropriate management controls
   for purchase card use, procurement, and motor pool operations. However,
   there is room for improvement in the area of property management.
    This inspection assessed the operations of the International Broadcasting
Bureau’s (IBB) transmitting station in Delano, California, including its program
management, program performance, and management controls. The inspection
took place in Washington, D.C., from November 8 to November 12, 2004, and in
California from November 15 to November 19, 2004. Assistant Inspector General
Louis A. McCall, Auditor-In-Charge Michele Anderson, and Management Analyst
Maria I. Hart conducted the inspection for the Office of International Broadcasting
Oversight in accordance with quality standards prescribed by the President’s
Council on Integrity and Efficiency. A previous OIG report that discussed the
Delano Transmitting Station was Review of the Broadcasting Board of Governors’
Transmission Delivery System (Report No. 00-IBO-033, September 2000).

OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   1 .

                                        UNCLASSIFIED
                                        UNCLASSIFIED





2 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                        UNCLASSIFIED
                                        UNCLASSIFIED





                                         CONTEXT



HISTORY
    The Delano Transmitting Station arose from a wartime initiative, in June 1942.
The Office of War Information, established in response to the need for accurate
information during World War II, determined that shortwave radio stations on the
U.S. West Coast were necessary to support the war effort in the Pacific theater.
These radio stations countered propaganda broadcast from Japan and provided
much-needed entertainment to Allied troops throughout the Pacific.

    After extensive research and testing, Delano and Dixon, California, were
chosen as the two best sites on the West Coast because of their strategic locations
and the ability of signals from those points to reach the Caribbean and Asia.
Construction began at Delano in February 1944, and Dixon was established in
1947. A transmitting station with a similar wartime mission, the Bethany Trans-
mitting Station, began broadcasting in 1944 from West Chester, Ohio. By
November 1944, the Delano station was on the air under contract with the
Columbia Broadcasting System (CBS Radio). It had two 50 kilowatt (kW) short-
wave transmitters broadcasting to the Pacific. A 200 kW shortwave transmitter
began broadcasting in 1945.

     At the end of World War II, Voice of America (VOA) was given the mission of
broadcasting news and information to overseas audiences. The Delano station
aimed its broadcasts to the Far East and relayed programs via shortwave to VOA
facilities in Hawaii, Okinawa, and the Philippines, where they were retransmitted.

     The beginning of the Korean War prompted additional funding and the
modernization of VOA. At the close of the conflict in 1953, VOA was placed
under the newly formed United States Information Agency. CBS Radio maintained
and operated the Delano facility until November 1, 1963, when the U.S. govern-
ment assumed operational control of the station. Another U.S.-based transmitting
station began broadcasting from Greenville, North Carolina, in January 1962.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   3 .

                                        UNCLASSIFIED
                                        UNCLASSIFIED



          In 1965, in reaction to the Cuban Missile Crisis, the Delano station underwent
      an extensive modernization. The work included a structural addition to the main
      transmitter building and the installation of three new, Collins, 250 kW, automated,
      shortwave broadcast transmitters and two Continental, 50 kW, independent,
      sideband transmitters. These sideband transmitters were needed to feed program
      material with greater reliability to the Philippines station, Europe, and Africa. This
      work, completed in 1968, more than doubled the station’s power output.

          During the Vietnam War, additional modifications were made to improve
      reception. The next phase of modernization occurred in 1985, when four 250 kW
      Brown Boveri transmitters replaced the three original transmitters, which had been
      in service for more than 40 years.

           In 1988, a multi-band, curtain-array antenna was installed; the antenna can be
      electronically aimed to better serve the station’s broadcasting needs. Also in 1988,
      in a major augmentation of its mission, the Delano Transmitting Station became
      part of the global SIS. The Delano Transmitting Station now functions as a satel-
      lite earth station, providing radio program feeds to two transmitting sites in the
      Philippines and one in Thailand, while completing the global loop of circuits.

           The Dixon Transmitting Station, which was located 250 miles north of Delano,
      was closed in the late 1980s because of budgetary constraints. In 1994, the
                                                          Bethany Transmitting Station
                                                          closed, leaving Delano and
                                                          Greenville as the only IBB trans-
                                                          mitting stations on the U.S. main-
                                                          land. As of today, Delano is the
                                                          last broadcasting facility in the
                                                          United States to use Collins trans-
                                                          mitters. These transmitters, which
                                                          are noted for their highly durable
                                                          design, formerly operated 20 hours
      Photo 1: Aerial view of Delano Transmitting Station a day. Now, due to their relatively
             Source: Delano Transmitting Station
                                                          inefficient power consumption,
                                                          Delano only uses them minimally,
      primarily to provide back-up substitution, as required, for some programs normally
      broadcast by the Greenville Transmitting Station. Nestled on 800 square acres of
      open field, the Delano transmitter site is also a home to three endangered species:
      the Tipton kangaroo rat, the blunt-nosed leopard lizard, and the San Joaquin kit
      fox.



4 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                        UNCLASSIFIED
                                        UNCLASSIFIED



MISSION
    The Delano Transmitting Station’s missions are providing shortwave transmis-
sions to specified target areas and serving as a gateway for the SIS.

     Figure 1: Languages Used In Delano Station’s Broadcasts

                       Delano’s Shortwave Broadcasts*

     Broadcast Entity and Target Audience                                               Language
     Office of Cuba Broadcasting                                                          Spanish

     Cuba
     Voice of America                                                                Creole, Spanish,

     Caribbean, Latin America, and Pacific Ocean                                      Special English
     Elliniki Radiofonia Tileorasi -                                                Various, including
     Greek Government Broadcasting                                                          Greek

     Eastern North America, Pacific Ocean, and Oceania.
     British Broadcasting Corporation                                                English, Spanish

     Caribbean, Central America Latin America.
     The Royal Thai Government -                                                           Thai

     Ministry of Foreign Affairs, Thailand

                                 Source: Delano Transmitting Station




* The station provides transmission for the British Broadcasting Corporation, as part of a
contract with Merlin Communications International Ltd. in the United Kingdom. The station
also provides transmission for Elliniki Radiofonia Tileorasi, as stipulated in the 1997 country-
to-country agreement with the Government of the Hellenic Republic. The agreement allows
the U.S. government to operate radio facilities in Kavala and Rhodes, Greece. IBB trans-
mits programming through Delano for the Royal Thai government as part of the Broadcasting
Board of Governors’ obligations under the amended bilateral agreement for the operations of
IBB’s Thailand Transmitting Station.



OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   5 .

                                        UNCLASSIFIED
                                        UNCLASSIFIED





6 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                        UNCLASSIFIED
                                        UNCLASSIFIED





                   PROGRAM MANAGEMENT



MANAGEMENT CHALLENGES
     The Delano Transmitting Station operates in a benign environment in a rural
farmland setting. The challenges facing station management are fulfilling the
station mission with a reduced staff, managing the transition of the staff composi-
tion from older experienced employees to newer less experienced employees,
maintaining dated equipment for shortwave broadcasting, working within a budget
that can be battered by the vagaries of California’s electrical power supply and
pricing situation, and working under the regulatory restrictions of having endan-
gered species on site and conforming to California’s strict environmental rules for
the use of pesticides and hazardous materials. The station manager and transmitter
plant supervisor form a cohesive team and have risen to these challenges.

     Figure 2: Resource Profile, Delano Station


                 Resource Profile Delano Transmitting Station

          •         FY 2004 annual budget allotment of $1.8 million

          •         Capital assets valued at over $24 million

          •         Staff of 18:

                    °         17 direct hires (technical and administrative). Out of
                              20 authorized positions, three are vacant; and

                    °         One Foreign Service officer (station manager)
 Source: Delano Transmitting Station Facilities Handbook (Sept. 1999), station monthly operations
 report (Oct. 2004), and station budget documents.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   7 .

                                        UNCLASSIFIED
                                        UNCLASSIFIED



      STATION MORALE
          Morale at the Delano Transmitting Station is generally high. Some employees
      are in their initial work experience with a transmitting station, although others have
      worked previously with other IBB stations or in the private sector with suppliers of
      transmitters used by IBB. Most employees told OIG that the current management
      team is one of the best they have seen. However, a few employees related experi-
      ences and disappointments regarding micro-management, a perceived lack of
      recognition, and a desire for safety enhancements. Nevertheless, although these
      employees had personal issues, they all agreed that overall morale at the Delano
      Transmitting Station was high. Some also noted that, in their opinion, management
      has learned, made adjustments, and improved. OIG found no instance where
      procedures established by management violated safety standards. OIG found
      safety to be important to station management, and the station’s excellent safety
      record bears testimony to this.




8 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                        UNCLASSIFIED
                                        UNCLASSIFIED





                  PROGRAM PERFORMANCE



OVERSIGHT FOR DELANO TRANSMITTING STATION

        The Delano Transmitting Station delivers over 18,000 hours of program-
ming annually. Programs are received from Washington, D.C., via digital satellite
and a high-speed landline circuit and are decoded at Delano and routed to the
proper transmitters and antennas. A computer-controlled audio-switching console
in the control room routes the correct program to the schedule transmitter.

     Delano is only partially automated and requires highly skilled technicians on
site around the clock. As technology evolves and improves, several computer-
controlled and/or monitoring projects are currently underway. The largest is to
automate control of the radio-frequency switchbay, which will allow audio pro-
grams to be switched automatically to various transmitters. This new system will
also remotely start reel-to-reel tape machines, cartridge-tape machines, and com-
pact disc players, to provide sign-on and sign-off announcements and local emer-
gency programming as required.



TRANSMITTER AND ANTENNA MAINTENANCE AND
AVAILABILITY
    The Delano Transmitting Station carries out its shortwave transmissions using
three 250 kW Collins Radio Company transmitters and four 250 kW Brown Boveri
transmitters. The solid-state modulators of the Boveri transmitters make them
more efficient than the vacuum-tube operated Collins transmitters. Additionally,
there are two 50 kW, Continental Electronics, independent, sideband shortwave
transmitters that are maintained as back up systems for the satellite circuits feeding
the Philippines. In the station’s antenna field, there are 16 curtain antennas and six
rhombic antennas. These antennas cover the primary reception areas in Southeast
Asia and Central America. All of the transmitters can be connected to any antenna
through a radio-frequency switchbay.


OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   9 .

                                        UNCLASSIFIED
                                               UNCLASSIFIED



           Delano maintains an availability rate of more than 99 percent. As the station
       ages and the equipment matures, the on-going high maintenance and needs of the
       equipment place great demands upon the technical staff. Though the station now
       faces the challenges of equipment burnout, the cost of ordering parts has decreased
       tremendously over the past few years because of the expertise of the engineers.
       Many of the parts and equipment that keep Delano on the air are no longer avail-
       able because of age and the cost to manufacture them. When the Bethany and
       Dixon transmitting stations closed, Delano salvaged parts that cannot be purchased
       any longer, to save money. Much of the equipment from these stations were
       prototypes and Delano stores them until needed. The closing of these two stations
       allowed Delano to function more economically, reusing parts that would have
       otherwise been discarded or destroyed.

           Because of some equipment shortages, station management said the station had
       to hire a crane to repair the main antenna, at a cost of from $2,000 to $3,000 per
       repair call. The high cost forced the station to put off some repairs until a major
                                                              matter required the crane, which
                                                              permitted the minor matters to be
                                                              taken care of. Within the next
                                                              few months, Delano will acquire
                                                              an urgently needed piece of
                                                              equipment called a swing stage,
                                                              which was constructed especially
                                                              for the U.S. government. The lift
                                                              was excessed by the Tinian
                                                              Transmitting Station and can hold
                                                              up to two men, thus enabling
                                                              Delano to save an average of
                                                              $2,000 to $6,000 per fiscal year in
        Photo 2: Rigger at 200 feet doing antenna maintenance
                                                              repair costs.
         Source: Delano Transmitting Station




10 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                               UNCLASSIFIED
                                        UNCLASSIFIED



SATELLITE INTERCONNECT SYSTEM
    The Delano Transmitting Station serves a crucial role as an SIS gateway to the
Far East, the Caribbean, Central and Latin America, Cuba, Thailand, Micronesia,
                                               the Pacific Ocean, Oceania, and
                                               Indian Ocean regions. In 1988,
                                               Delano took on a new major role.
                                               A direct, two-way, satellite link
                                                was installed between the station
                                                and the Washington, D.C., head-
                                                quarters, delivering up to 32 audio
                                                circuits to the site. Since then, the
                                                number of circuits has increased
                                                to 48. Assorted data links, radio
                                                and video programming, and
                                                 telephone circuits also connect
Photo 3: Satellite dishes at Delano Station      through this system.
Source: Delano Transmitting Station



ASSISTING THE GREENVILLE STATION
     IBB’s Network Control Center (NCC) in Washington, D.C., has occasionally
called on Delano to substitute broadcasting various programs for the Greenville
Transmitting Station. If a technical problem keeps the Greenville station from
transmitting a program, the NCC notifies Delano as late as five minutes before the
Greenville broadcast is scheduled to air. The Delano station has always met the
deadline and substitutes for Greenville from 10 to 100 hours a month. The
Greenville station’s broadcast schedule is double that of Delano’s, and Greenville
has little reserve capability. However, Delano has its Collins transmitters in re-
serve.



JAMMING AND THE OFFICE OF CUBA BROADCASTING (OCB)
    IBB has a remote monitoring system that enables Delano to follow broadcast
transmissions to Cuba and actually hear programming from the day before. Besides
assessing the extent of the jamming of Radio Marti broadcasts by the Castro




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   11 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED




       regime, the Delano station broadcasts Radio Marti on shortwave over several
       frequencies to circumvent as much of the jamming as possible. Because Radio
       Marti programming accounts for approximately 50 percent of Delano’s shortwave
       transmission and electricity consumption, the OCB pays its share of the station’s
       electricity bills.



       FACILITIES
           In the 1960’s the Delano station underwent a major renovation, adding a new
       brick portion to the front of the original structure, built in 1944-1945. The station
       complex consists of the main transmitter and administrative building and several
       smaller structures that serve as shelter and storage for equipment, the mechanical/
       rigger shop, and well pumps. The radio frequency transmission lines and the
       antenna systems require most of the remaining 800 square acres of space. The
       capital cost for the Delano station exceeds $24 million; however, the replacement
       costs exceed this by several times.



                  Figure 3: Delano Transmitting Station Capital Investment Costs

                           Category of Cost                                          Current Value

                 Land                                                                $      197,448.00

                 Buildings                                                                1,846,790.00

                 Other Structures                                                             44,557.00

                 Satellite interconnect System                                            1,341,632.00

                 Antennas/Receivers/Communications Equipment                             15,512,763.00

                 Power Equipment Generators Switch Gear                                      162,587.00

                 Transmitters                                                             5,164,225.00

                 Total                                                                   24,270,002.00


                                      Source: Delano Transmitting Station




12 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED



COMMERCIAL POWER
    The Delano Transmitting Station uses commercial power supplied by Southern
California Edison. There are two voltage feeders into the substation with auto-
matic switch-over. A small backup generator maintains the SIS. A large unin-
terrupted power supply is connected to the gateway earth station, and a smaller one
is connected to the shortwave control room.

     Figure 4: Power Usage and Costs




              Source: OIG chart derived from Delano Transmitting Station records.



    Delano’s operating costs fluctuate monthly, mostly due to California’s on-going
issues with acquiring and disseminating electrical power. With an average use of
700 kW per month, the station’s electrical power usage can run as high as $2,200 a
day. However, good management has been able to stem much of the expense
through various transmission techniques and in-house energy conservation. In FY
2004, the Delano station spent a little over $981,000 for power, approximately
$200,000 less than in FY 2003.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   13 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





14 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED





                          HUMAN RESOURCES

    The President’s Management Agenda addresses the strategic management of
human capital and the importance of human resource planning. The Delano
Transmitting Station has a diverse staff, including its first female electronics techni-
cian, and is undergoing a transition to newer, less-experienced staff.



WORKFORCE CONCERNS
     Delano’s authorized staffing level includes a station manager and 20 technical
and administrative positions. Because three technical positions are vacant and the
station has aging, high-maintenance equipment, balancing the workload is a
challenge. The station has three eight-hour shifts. On at least two to three days
out of a 10-day period, there are at least three individuals on the evening and
overnight shifts, but these shifts generally operate with only two people, the mini-
mal number for safe operations. With reduced staff, scheduled maintenance during
the evening and overnight shift is not always done in a timely manner; however,
maintenance is completed as soon as possible. The station manager told OIG that
essential maintenance always gets done.

     In 2003, Delano lost seven individuals to retirement or attrition, representing a
combined loss of 127 years of experience. Though skilled and performing well, the
newly hired staff has yet to match the amount of knowledge lost. Over the next
three years, three additional staff members, having a combined 105 years of
experience, will be eligible to retire. Station management noted that the pending
retirement of one of the three would result in a tremendous loss of institutional
knowledge and expertise. Shortly after arriving, the management had to quickly
hire five individuals. Otherwise, the station has been stymied by a hiring freeze.
The vacancies have required everyone to put in some overtime, but the staff ’s
willingness to take on extra work during normal shift schedules has reduced the
need for excessive overtime. Station management said effective manipulation of
scheduling has helped in keeping abreast of scheduled maintenance, repairs, and
emergency matters.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   15 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





       TRAINING
           The President’s Management Agenda supports staff development through
       training. The Delano station has taken the initiative to maintain staff training via
       in-house and external opportunities. Because all of the station’s work is highly
       specialized, two or three of the senior shift supervisors take time to train
       newcomers and to offer constant on-the-job training, as the need arises. Training
       opportunities are supported and encouraged for all positions. Some of the
       seasoned employees who have exceptional skill levels train on their own and
       update their knowledge from outside sources.

           Management has developed an intense, 18-page, in-house certification program,
       which assesses the skill levels of newly hired employees. Each new employee is
       required to complete the program’s requirements. Management said the program
       did not have any specific completion dates, because management did not want to
       impose more stress on an already duty-stretched staff. However, the transmitter
       plant supervisor, who is the training officer, stated that he has told the staff that it
       should only take six months to achieve each skill level and the entire certification
       program should take approximately 18 months to complete. Given the transition in
       human capital that is underway, the station needs to set specific deadlines for
       completing the certification program and incorporate the guidelines into a Station
       Management Instruction, to ensure better succession and readiness.


           Recommendation 1: The International Broadcasting Bureau should review
           the staffing needs of the Delano Transmitting Station to determine whether
           one or more vacancies should be filled at this time. (Action: IBB)


            The BBG agrees with this recommendation and indicates that staffing issues at
            many stations, including Delano, will be addressed when the budget situation
            improves.


           Recommendation 2: The International Broadcasting Bureau should ensure
           that the Delano Transmitting Station establishes timelines for employees to
           progress through its certification program. (Action: IBB)




16 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED



     The BBG agrees with this recommendation and advised OIG that, as of
     February 2005, all current employees required to participate in the certification
     plan have completed all skill requirements. BBG also noted that Station
     Management Instruction Number 16 has been issued to address the establish-
     ment of a timeline for all future participants in the certification program.



SAFETY AND EMERGENCY EVACUATION PROCEDURES
     The Delano Transmitting Station has thorough emergency evacuation and
safety plans, but it is not clear whether all the employees are fully aware of what to
do if there is a need to act on either plan. Station management said they have
concentrated on training employees in using fire-suppression equipment and pro-
viding cardio pulmonary resuscitation, rather than focus on drills. The Delano
Transmitting Station is not faced with the extent or types of emergency situations
common to overseas locations. Delano’s emergency plan lists both natural and
man-made hazards, with fires being at the top of the list of natural hazards. The
station manager is authorized to establish and implement the station safety plan by
the Manual of Operations and Administration Part IV, Sections 460-470. Section
7.10 of the station safety plan states that fire drills are to be held quarterly. The
first few minutes are vital in fire fighting, when lives and/or property are threat-
ened. Fire drills ensure that the staff knows the proper exits and procedures, to
preserve life and facilitate an evacuation.

    Most of the staff said they felt relatively safe at the station; however, some
were concerned regarding proper manpower coverage, when conducting mainte-
nance and repairs. OIG discussed this with station management and was satisfied
by management’s sensitivity to the issue and the steps immediately taken to discuss
staff concerns at the next scheduled meeting.


    Recommendation 3: The International Broadcasting Bureau should ensure
    that the Delano Transmitting Station establishes and implements procedures
    for quarterly fire drills. (Action: IBB)


     The BBG concurs with the requirement to conduct drills, noting that demon-
     strations and drills are an integral part of any fire prevention program.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   17 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





18 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED





                  MANAGEMENT CONTROLS

     OIG found that the station was using appropriate management controls for
purchase card use, procurement, and motor pool operations. However, OIG found
room for improvement in the area of property management. In addition, the
station manager has all guidance available online, including station management
instructions, standard operating procedures, and maintenance procedures.



PURCHASE CARD USE
    The Delano Transmitting Station has neither an imprest fund nor a cashier. The
Delano station has three individuals with purchase cards. OIG did a cursory review
of the credit card statements and found the records are maintained in accordance
with the guidelines.



CONTRACTS AND PROCUREMENTS
    The station is responsible for adhering to proper U.S. government procurement
rules (Federal Acquisition Regulation, Section 13). In addition, it uses Transmitting
Station Instruction 104. OIG reviewed selected contracts and purchases and found
no irregularities.

    The station manager and the administrative officer have contracting warrants
for up to $100,000, for simple acquisitions. The plant supervisor has a warrant for
up to $50,000. All had their warrant certificates available for inspection, and their
training was current.



PROPERTY MANAGEMENT
    Transmitting Station Instruction 108 prescribes the policies and procedures for
property accountability. OIG found some areas where the Delano Transmitting
Station could improve on the controls over accountable property.


OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   19 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED



            The station has eight property custodians for its real and non-expendable
       property, but the expendable property stocked by the station is not subject to an
       annual physical-inventory check. According to the station’s supply technician, the
       last physical inventory on expendable property was conducted in 1991. Station
       management said this was because station staff assumed an inventory was not
       required, that other measures sufficed, and because the station has over 3,000
       online listings in its inventory. However, when spot inventory checks were done,
       discrepancies were found in the recorded count and the on-hand balances.

           At the Delano Transmitting Station, persons receiving parts must complete an
       in-house-developed form that is submitted to the supply technician. However,
       forms are not consistently completed when supplies and parts are removed from
       inventory. According to the station manager, an employee in the heat of the
       moment while making a repair may forget to complete the form. The station
       manager did assert that some discrepancies are resolved by reconciling balances
       with maintenance logs. When records are not maintained accurately, it could
       hamper the station’s transmission, should critical parts and supplies be absent when
       needed.

            Another concern is that there is no restriction on access to parts and supplies,
       and one person does not control access to parts and supplies. Parts and supplies
       are accessible to anyone at the Delano Transmitting Station, in part because every-
       one has master keys. Parts and supplies are housed in various locations. The
       station manager prefers having parts immediately accessible, in the interest of
       performing timely maintenance and repairs during Delano’s three shifts.

           OIG found the parts warehouse open and unattended. Parts for the Collins
       transmitters are stored in the same room with the transmitters, and parts for the
       Brown Boveri transmitters are stored in the same manner. The riggers have their
       own open parts area. There is a bulk-storage area outside, three metal containers
       hold parts from the closure of the Bethany transmitting station, and a small
       wooden building also provides additional storage. Although it is convenient to
       house parts and supplies near where they will be used, parts should be secured in a
       controlled-access area behind a locked grille or cabinet. If there is no control over
       the access to parts and supplies, there is more likelihood of errors in inventories
       and record-keeping. Potentially, replacement parts may not be on hand when
       needed.

           Transmitting Station Instruction 108 states that “the transmitting station
       manager ... is the accountable officer for the site.” The Accountable Officer is
       responsible for managing and accounting for all property under the control of the


20 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED




site. Section 108.6 specifically states that a physical inventory to verify the on-
hand balance, shown on the expendable record, will be conducted once each year.


    Recommendation 4: The International Broadcasting Bureau should ensure
    that the Delano Transmitting Station’s station manager establishes and imple-
    ments procedures for a physical inventory to be conducted annually on
    expendable property. (Action: IBB)


     The BBG concurs with the recommendation.


    Recommendation 5: The International Broadcasting Bureau should ensure
    that the Delano Transmitting Station’s station manager establishes procedures
    and controls to ensure accurate accounting of parts and supplies. (Action:
    IBB)


     The BBG concurs with the recommendation.


    Recommendation 6: The International Broadcasting Bureau should ensure
    that the Delano Transmitting Station’s station manager establishes procedures
    that restrict access to parts and supplies to a few individuals. (Action: IBB)


     The BBG does not agree with this recommendation, as it believes restricting
     access to parts and supplies is not a viable policy.



 MOTOR POOL OPERATIONS
    The station has a motor pool consisting of two rigging trucks, two medium-
duty trucks, one pickup truck, and one mid-size sedan. There are appropriate
maintenance and fuel files and records for each vehicle. Mileage logs are kept in
each vehicle. No official vehicles are used for home-to-office transportation.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   21 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





22 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED





                          RECOMMENDATIONS

Recommendation 1: The International Broadcasting Bureau should review the
  staffing needs of the Delano Transmitting Station to determine whether one or
  more vacancies should be filled at this time. (Action: IBB)

Recommendation 2: The International Broadcasting Bureau should ensure that
  the Delano Transmitting Station establishes timelines for employees to progress
  through its certification program. (Action: IBB)

Recommendation 3: The International Broadcasting Bureau should ensure that
  the Delano Transmitting Station establishes and implements procedures for
  quarterly fire drills. (Action: IBB)

Recommendation 4: The International Broadcasting Bureau should ensure that
  the Delano Transmitting Station’s station manager establishes and implements
  procedures for a physical inventory to be conducted annually on expendable
  property. (Action: IBB)

Recommendation 5: The International Broadcasting Bureau should ensure that
  the Delano Transmitting Station’s station manager establishes procedures and
  controls to ensure accurate accounting of parts and supplies. (Action: IBB)

Recommendation 6: The International Broadcasting Bureau should ensure that
  the Delano Transmitting Station’s station manager establishes procedures that
  restrict access to parts and supplies to a few individuals. (Action: IBB)




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   23 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





24 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED





                          PRINCIPAL OFFICERS


                                                      Name                      Arrival Date
Station Manager                                   Michael Hardegen              Jan. 18, 2003
Transmitter Plant Supervisor                      Clifford J. Smith             Sept. 24, 1989




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   25 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





26 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED





                                ABBREVIATIONS

                                CBS               Columbia Broadcasting System
                                IBB               International Broadcasting Bureau
                                kW                kilowatt
                                NCC               Network Control Center
                                OCB               Office of Cuba Broadcasting
                                OIG               Office of Inspector General
                                SIS               Satellite Interconnect System
                                VOA               Voice of America




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   27 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





28 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                               UNCLASSIFIED




       Appendix A: Transmitters, Broadcasters, Lan2uages, and Targets
                                           Voice of America                                Central America
                                           Spanish                                         South America
                                           Office of Cuba BroadcastinglRadio Marti         Cuba

        DL-Ol                              Cuban Spanish
                                           British Broadcasting Corporation
                                           English
                                                                                           Central America
                                                                                           South America
              250kW                        British Broadcasting Corporation                Central America
                                           Spanish                                         South America
                                           Elliniki Radiofonia Tileorasi                   Eastern North America
                                           English and Greek
                                           Voice of America                                Central America
                                          Spanish                                          South America
        DL-02                             The Royal Thai Government
                                          English and Thai
                                                                                           Pacific West Coast
                                                                                           North America
              250kW                       Elliniki Radiofonia Tileorasi                    Western Pacific Area
                                          English and Greek
                                           Office of Cuba BroadcastinglRadio Marti         Cuba
        DL-03                             Cuban Spanish
                                          Elliniki Radiofonia Tileorasi                    Eastern North America
              250kW                       English and Greek
                                           VOA Worldwide                                  Central America
                                          English                                         South America
        DL-04                              Office of Cuba BroadcastinglRadio Marti
                                          Cuban Spanish
                                                                                          Cuba

              250kW                       British Broadcasting Corporation                Central America
                                          English                                         South America
                                          British Broadcasting Corporation                Central America
        DL-06                             Spanish                                         South America

              250kW
                                          Voice of America                                Central America
        DL-07                             Spanish                                         South America

              250kW
                                          Voice of America                                Haiti

        DL-08                             Creole
                                          Voice of America                                Central America
                                          Creole and Spanish                              South America
              250kW                                                                       Haiti
                                          Standby                                         To Be Determined
       DL-09
               50kW
                                          Standby                                         To Be Determined
       DL-IO
               50kW
Source: Delano Transmitting Statton, November 2004



1   Delano does not have a DL-05 transmitter or make use of that transmitter number.


    OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   29 .

                                               UNCLASSIFIED
                                         UNCLASSIFIED





30 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED




           Appendix B: Delano Satellite Interconnect System Role




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   31 .

                                        UNCLASSIFIED
                                         UNCLASSIFIED





32 .   OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005


                                         UNCLASSIFIED
                                        UNCLASSIFIED




         Appendix C: Cost per Broadcast Hour FY 2004

     Transmitter*         ; Carrier           'Power Cost Per              i Total Cost Per
                          ; Hours             . Broadcast Hour             I Broadcast Hour
   ~__._                  I                   : (U.S. dollars)**           I   (U.S. dollars)** ~

  iL~~-'~_. . _II.::_~:O . mj I_:~_ . _ .._J[ ..~~.~.8_ _.. ~                                     m •••




  l~~-~~ . Ji :,.8?:..... ~L ~~~.~.~. _.... JI. ._~O~__                                         '_m'_




  I?L-~:.~ _11~~:m_.II_:~:~~...__ m~:I.mm~5.1 ~ .
  'I~~-~~ . _... 1~~1~ .~[_.~lm8_ .. _ll._~~·~ __.._ J
   I ~L-?6 '__.. _J_.. :8~.._ . 172.~    ~[_~~~:._              _                                . _-.:
   ID:=~~_ _     . ~ I=~ _ ;I __~~~ __ __ Jl__ ~~~. __                                            m_"



   1.?L-.~8_.._J L~.~==-~. L~·~.             .         __._.
                                          .J [_~~ __._._...~
   L~~~S_jL_.                              ._Jl!.?_~~ _. ~ J[~~::~                                 m      ~
  *Transmitters DL-Ol, -02, -03, -04 are Brown Boveri transmitters. Transmitters DL-06,
   -07, and -08 are Collins transmitters.

  ** Total Cost per Broadcast Hour includes Parts Cost per Broadcast Hour.




OIG Report No. IBO-I-05-05, The Int’l Broadcasting Bureau’s Delano, California, Transmitting Station, March 2005   33 .

                                        UNCLASSIFIED
